No. 19·1184

Jn the &uprtmt QCourtof the mntttb &tatt9'
NIKKI BRUNI; JULIE COSENTINO; CYNTHIA RINALDI;
KATHLEEN LASLow; AND PATRICK MALLEY,
PETITIONERS
v.
CITY OF PITTSBURGH; PITTSBURGH CITY COUNCIL;
MAYOROF PITTSBURGH,
RESPONDENTS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that
the Brief of Amici Curiae contains 5,281 words, excluding the
parts of the brief that are exempt by Supreme Court Rule 33.1 (d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on April 29, 2020

Signed and sworn before me this 29th day of April, 2020

Notary Public
State of West Virginia

OFFICW. SEAL
NOTARY PUBLIC
STATEOFWESTVIRGINIA

CATHIEHOFFMAN.
WV Office of the Attorney General
1900 Kanawha Blvd., Bldg. 1, Rm. 26E
Char1estan,WV :!5305
My Commission Expkes Decembel 18, 2020

